CERTIFICATE OF SERVICE
NO. 19-353
Trading Technologies International, Inc.
Petitioner(s)
v.
IBG LLC and Interactive Brokers LLC
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the US
INVENTOR AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S), by mailing three (3) true and
correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Robert Evan Sokohl
Sterne, Kessler, Goldstein & Fox P.L.L.C
1100 New York Avenue, N.W.
Washington, DC 20005
(202) 772-8677
rsokohl@sternekessler.com
Counsel for IBG LLC and Interactive Brokers LLC

Andrew Michael Grossman
Baker & Hostetler LLP
1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036
(202) 861-1697
agrossman@bakerlaw.com
Counsel for Trading Technologies International, Inc.

Lucas DeDeus

October 18, 2019
SCP Tracking: Dowd-1717 Pennsylvania Avenue, N.W.-Cover Cream

